No. 20-1172
IN THE

Supreme Court of the United States
GEORGE PONIK, RALPH SCIANNI, BAYONNE POLICE DEPARTMENT, CITY
OF BAYONNE, JOHN DOE POLICE OFFICERS 1-10, JOHN DOE 1-10,
individually and/or in their official capacities, jointly, severally, and/or in the
alternative,
Petitioners,
— v. —
JAMIE WILLIAMS, individually, and as Administratrix ad Prosquendum for the
ESTATE OF PETER LEE WILLIAMS, deceased, and MAUREEN WILLIAMS,
individually,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT
STIPULATION OF DISMISSEL

Petitioners, George Ponik, Ralph Scianni, Bayonne Police Department, City
of Bayonne, John Doe Police Officers 1-10, John Doe 1-10, and Respondents, Jaime
Williams, individually, and as Administratrix ad Prosquendum for the Estate of
Peter Lee Williams, deceased, and Maureen Williams, hereby stipulate and agree to
the dismissal of the above-captioned case, the parties having reached a settlement
to the mutual satisfaction of all parties, including costs and attorney's fees. All
parties will bear their own costs with respect to the proceedings before this Court.
All fees due the Court have been paid and no further fees are due. The parties

10098284 DOCX 11

respectfully request that the Clerk enter an order of dismissal forthwith in
accordance with Rule 46.1 of the Supreme Court of the United States.
Dated: August 5, 2021

is Cappelli, Jr., Esq.
Counsel of Record
Florio Perrucci Steinhardt Cappelli
Tipton & Taylor, LLC.
1010 Kings Hwy South
Building 2

w .cum

(856) 853-5530
Counsel for Petitioners

0096254 I DOCX v.1)

Counsel of Record
Clemente Muller, P.A.
222 Ridgedale Avenue
FL 2
Cedar Knolls, NJ 07927

Cherry Hill, NJ 08034
'calve

Jonathan Clemente, Esq.

mmueller@cm-legal.com
(973) 455-8008
Counsel for Respondents

